                                                    National Railroad Passenger Corporation
                                                    Office of Inspector General
                                                    10 G Street N.E.
	                                                  Washington, DC 20002




                           FAILURE TO REPORT JOB INJURY
                                 OCTOBER 29, 2013
                                 CASE # IL-13-0151

We investigated allegations that an Amtrak coach cleaner did not report her alleged on-
the-job injury. The matter did not come to light until the employee filed an injury claim.
Additionally three Amtrak employees were interviewed by the injured employees
counsel, but none of the employees ever notified Amtrak about their interview. We
reported the results of our investigation to Amtrak management. Amtrak management
concurred with our recommendation to publish and disseminate policy reminders to
employees regarding their duties to report work-related injuries; and their duty to protect
confidential information and not disseminate such information to outside parties before
consulting with supervisors.
